September 26, 2002
Audit Report No. 02-033


Statistical CAMELS Offsite Rating
Review Program for FDIC-Supervised
Banks
2
3
Also, the FDIC may rely upon the examinations performed by the state banking authorities for
every other examination, meaning that an institution can go up to 3 years without an FDIC
examination. To help bridge the gap between examinations, regulators use various offsite
monitoring tools to stay abreast of the financial condition of institutions.

Offsite monitoring focuses on evaluating the financial condition and potential risks of insured
depository institutions through data collection, analysis, and review. DSC case managers are the
key players in the FDIC’s offsite monitoring program. If certain risk indicators are identified,
such as an increase in past due loans, the case manager can determine whether supervisory
attention is warranted before the next regularly scheduled examination.

During 1998, the FDIC implemented a new offsite rating tool, SCOR, to more effectively and
efficiently monitor risk to the banking and thrift systems. The SCOR system replaced the
Capital Asset Earnings Liquidity (CAEL) offsite monitoring system. SCOR uses quarterly
Reports of Condition and Income (Call Reports)3 to identify institutions that could potentially
receive a downgrade in their CAMELS ratings at their next safety and soundness examination.
To do this, SCOR uses statistical techniques to estimate the relationship between Call Report
data and the results of the latest examination and estimates the probability of an institution being
downgraded at the next examination.

SCOR calculates and displays an institution’s probability of downgrade for both composite and
component ratings. According to the DSC Case Managers Procedures Manual, when a “1” or
“2” rated institution shows a 30-percent or higher probability of being downgraded to a “3,” “4,”
or “5,” SCOR flags the institution for inclusion on an exception report, called an Offsite Review
List (ORL). The ORL also includes “3” rated institutions that had a 30-percent or higher
probability of being downgraded to a “4” or “5.”

Quarterly, DSC case managers review the institutions identified in the SCOR ORL reports and
provide a written analysis of the review to assistant regional directors for approval. The Case
Managers Procedures Manual states that the case manager’s SCOR analysis will identify the
reasons for the deterioration in any components identified by SCOR and recommend an
appropriate follow-up response. The DSC field offices are provided copies of the SCOR
analysis. FDIC examiners review SCOR and any analysis as part of their pre-examination
planning. The Case Managers Procedures Manual includes state and other federal regulators on
the SCOR analyses distribution list.

In addition to SCOR, the FDIC uses the Growth Monitoring System (GMS) and Real Estate
Stress Test (REST) as its primary tools for offsite monitoring. GMS analyzes financial ratios
and changes in dollar balances based on Call Report information to identify banks that have
experienced rapid growth. REST is a model that measures a bank’s exposures to real estate


3
 Call Reports are sworn statements of a bank’s financial condition that are submitted to supervisory agencies
quarterly in accordance with federal regulatory requirements. Call Reports consist of a balance sheet and income
statement and provide detailed analyses of balances and related activity.


                                                         2
lending by using the current Call Report data to forecast an institution’s condition over a 3- to
5-year horizon and scoring institutions on the CAMELS scale of 1 to 5.

The FDIC does not consider offsite monitoring a substitute for bank examinations. The FDIC
recognizes that the accuracy of its offsite monitoring systems is dependent on the accuracy of
Call Report data. Those institutions that do not accurately report their financial condition may
not appear as a potential problem on the SCOR system. Thus, if information contained in a
bank’s Call Report does not reflect the true condition of the bank, the effectiveness of the early
warning system is diminished.


RESULTS OF AUDIT

The effectiveness of the SCOR review program in detecting potential deterioration in the
financial condition of insured depository institutions, as presently implemented, is limited for the
following reasons:

    •   A time lag of up to 4½ months exists between the date of the Call Report and the
        subsequent offsite review;

    •   The SCOR system depends on the accuracy and integrity of Call Report information to
        serve as an early warning between examinations;

    •   The SCOR system cannot assess management quality and internal control or capture
        risks from non-financial factors such as market conditions, fraud, or insider abuse; and

    •   DSC case managers rarely initiate follow-up action to address probable downgrades
        identified by SCOR outside of deferring to a past, present, or future examination.

As a result, SCOR has not identified emerging supervisory concerns or provided early warnings
of potential deterioration at the majority of financial institutions in our sample. Further, case
managers are placing limited reliance on SCOR as an early warning system.


LIMITATIONS OF SCOR AS AN EARLY WARNING SYSTEM

Time Lags in the SCOR Review Process

The analysis of SCOR reports can take up to 4½ months after the “as of” date of Call Report
information. According to the Case Managers Procedures Manual, the initial SCOR ORL is
available approximately 45 days after the Call Report date. The SCOR deadline for the
completed DSC case manager analysis and input of codes is 3 months after the initial SCOR
ORL, as shown in the following table.




                                                 3
Table 1: SCOR Time Frames
           Call Report                        SCOR ORL                      SCOR
              Dates                             Initial                    Deadline

     March 31                       May 15                        August 15
     June 30                        August 15                     November 15
     September 30                   November 15                   February 15
     December 31                    February 15                   May 15
Source: DSC Case Managers Procedures Manual

For example, with a March 31 Call Report, the SCOR ORL is available May 15 with the SCOR
deadline date being August 15, 4½ months after the Call Report date. If case managers use the
entire time frame to complete this analysis, there is generally not enough time between
examinations for the case managers to recommend onsite activity such as a visitation or
acceleration of the next examination. Therefore, case managers cannot verify whether the early
warning of potential downgrade is valid and take any appropriate action.

FDIC-supervised institutions are on a 12- or 18-month examination cycle with alternating
examinations usually performed by state banking departments. The SCOR review program
generally operates on a 4½-month cycle between the Call Report date and the case manager’s
analysis due date. Once SCOR flags an institution and the SCOR analysis is prepared, typically
an examination either (1) has occurred within the last 3 to 6 months, (2) is currently taking place,
or (3) is planned in the next 3 to 6 months. For those SCOR-flagged institutions we reviewed,
we found that the case managers’ analysis either deferred to the most recent examination and/or
reasoned that any deterioration, if not already known, would be detected in the next examination.
As a result, it appears that limited reliance is placed on SCOR because time lags in processing
and analyzing data often render the information meaningless for early warning purposes.

The Chairman of the FDIC has begun an initiative to modernize the Call Report process and
improve the flow of bank data. Part of that initiative will include reducing the turn-around time
for processing Call Report data. Currently it takes 45 days after quarter-end before Call Report
data are processed and available for offsite monitoring purposes. Under the Chairman’s
initiative, that time will be reduced to a few days after quarter-end.

In conjunction with shortening the time needed to process Call Reports, DSC may want to
reevaluate its time frames for analyzing SCOR ORLs. In our opinion, the 3 months currently
allowed could be reduced. When SCOR replaced CAEL in 1998, the FDIC did not update the
3-month time frame used by case managers to analyze the institutions flagged by offsite
monitoring. Instead, the FDIC relied on the CAEL time frames outlined in Transmittal Number
94-021, dated February 7, 1994. On average, we found case managers completed their analysis
70 days after the initial ORL. However, based on our interviews with case managers, they did
not use this entire time frame to complete the analysis and the analysis only took 1 to 2 days to
perform. Unless the time frames can be shortened, the usefulness of SCOR is diminished



                                                  4
because of questions concerning the currency of information and proximity to the next
examination.

Dependence on Accurate Call Report Data

The effectiveness of SCOR is dependent on the accuracy and integrity of Call Report data.
SCOR uses various ratios based on Call Report data to calculate an institution’s probability of
downgrade for ratings. Institutions submit Call Report data to the FDIC and, absent errors
detected in processing or examiners identifying a problem within records underlying that data,
the information is accepted and used for offsite monitoring and reporting purposes. As a result,
if institutions do not accurately report their condition in Call Reports, SCOR indicators may not
be an accurate reflection of an institution’s actual condition.

SCOR is a financial data driven model that uses quantitative techniques to translate various
indicators of bank strength and performance into estimates of risk. Inherent in SCOR is the
assumption that there is a regular relationship between a bank’s financial condition and the
CAMELS rating from an onsite examination. Altogether, SCOR measures 13 ratios to determine
ratings. These ratios compute each of the following items as a percentage of assets:

   •    Total Equity Capital                                 •   Loan Loss Reserve
   •    Past Due Loans 30 Days                               •   Past Due Loans 90 Days
   •    Non-accrual Loans                                    •   Other Real Estate Owned
   •    Net Charge-offs                                      •   Provision for Loan Losses
   •    Net Income                                           •   Cash Dividends Declared
   •    Volatile Liabilities                                 •   Liquid Assets
   •    Loans and Long-term Securities

In our sample of 94 institutions that had been downgraded by an examination, SCOR did not
"flag" 67 (71 percent) of the institutions as potential problems before that examination.
Moreover, we noted that at least 16 of these institutions had been downgraded two or three
composite CAMELS ratings, yet had not been flagged in advance by SCOR. The following
table shows the extent of the decline in CAMELS ratings for the 16 institutions:

Table 2: Composite Rating Changes on Sampled Institutions
       Composite Rating      Number of Institutions
          Change From
             1 to 3                     5
             1 to 4                     3
             2 to 4                     8
             Total                     16
Source: OIG analysis of composite ratings of sampled institutions.

To gain an understanding as to why these 16 institutions may not have been flagged by SCOR,
we reviewed examination files and found that inaccurate Call Report data coupled with



                                                         5
institution management problems were evident in each case. For example, institution
management in several cases understated adversely classified assets and the loan loss reserves
were in turn under-funded. In each case, the bank failed to identify its loan problems, thus
overstating its earnings and capital. Once examiners identified these problems during onsite
examinations and the banks made the appropriate adjustments, their financial condition
warranted a CAMELS downgrade. When an institution fails to recognize asset problems in its
Call Reports, key SCOR indicators such as provision for loan losses, loan loss reserve, earnings,
and capital will not reflect accurate balances. As a result, inaccurate Call Reports impede early
warning of troubled banks.

Limitations on Ability to Assess Management Quality and Related Risks

The evaluation of bank management remains largely outside the realm of offsite monitoring
systems. SCOR performs quantitative analyses based on information contained in Call Reports.
Although SCOR provides a management rating, it is based on the bank’s financial performance
as opposed to qualitative factors. The FDIC’s preferred approach to assessing qualitative factors
such as management quality and internal control, risk management systems, and underwriting
standards is through onsite examinations. SCOR also does not capture risks from non-financial
factors such as market conditions, fraud, or insider abuse. These factors, in turn, can also impact
the ratings assigned by the examination to other CAMELS components. Accordingly, all offsite
monitoring systems are limited in their ability to serve as early warning systems.

In many of the examination reports we reviewed, examiners noted inexperience and lack of
ability at the senior management and board of director level as a significant circumstance leading
to examination downgrades. The Management component was downgraded for all 16
institutions receiving examination downgrades of two or more composite CAMELS ratings that
were not previously flagged by SCOR. In 13 of the 16 cases, the Management component was
downgraded by two or more ratings. Criticism of management taken from downgraded
examinations included comments such as:

   •   Board oversight and executive officer performance in all areas of the lending function is
       weak.
   •   Management supervision is unsatisfactory, and senior management’s ability to correct
       deficiencies in a timely manner is questionable.
   •   President and senior management engaged in new and high-risk activities without
       sufficient Board supervision, due diligence, and adequate policies.
   •   Management continued its failure to recognize or adequately incorporate the complexity
       of asset securitization into the bank’s risk management system.
   •   Management’s current methodology for identifying and monitoring problem loans is
       inadequate.
   •   Board supervision of the bank’s subprime lending is inadequate.
   •   Management concentrated a large portion of the loan portfolio in limited credit
       relationships resulting in adversely classified loans and apparent violations of lending
       limit regulations.



                                                 6
These significant management deficiencies eventually led to problems at these institutions. In
the next section of this report, we will discuss the importance of integrating known management
deficiencies into SCOR off-site analyses.

DSC Responses to Early Warnings

DSC case managers rarely initiated follow-up action to address probable downgrades identified
by SCOR outside of deferring to a past, present, or future examination. The Case Managers
Procedures Manual requires that the case managers review institutions and recommend an
appropriate response. However, the case managers appeared reluctant to recommend a response,
instead relying almost exclusively on past or future examinations to confirm or dispute the
SCOR ratings. Therefore, DSC may have missed opportunities for early intervention.

Quarterly, DSC case managers review the institutions identified in the SCOR ORL reports and
provide a written analysis of the review. The Case Managers Procedures Manual states that the
case manager’s SCOR analysis will identify the reasons for the deterioration in any components
identified by SCOR and recommend an appropriate follow-up response. The case managers
assign an action code and a follow-up code for each institution on the ORL. The SCOR Offsite
Review Program Manual refers to Transmittal Number 94-021 for detailed instructions on the
SCOR action codes. According to Transmittal Number 94-021, dated February 7, 1994, the case
managers designate a “B” when the institution is in better condition than the system indicates. A
“C” supervisory concern code is used when the case manager’s review shows that the SCOR
composite rating is appropriate, or should be worse.

The case managers also designate a follow-up code. An “N” indicates that no follow-up action
is required and an “F” indicates that a follow-up action has taken place or will take place.
Follow-up actions may include onsite visitations; discussions with the institution's management;
communication with other federal banking agencies and state authorities; or continued offsite
analysis of the institution.

The follow-up codes entered into SCOR by case managers generally depend on whether an
examination is recent (no follow-up needed) or in the near future (follow-up is the next onsite
examination). Of 94 FDIC-supervised institutions downgraded to a “3,” “4,” or “5,” SCOR
flagged 27 institutions (29 percent) as having potential problems. Of these 27 cases, only 5 were
identified as a concern that required follow-up action. The follow-up action for three of the five
cases with a concern was that an examination was scheduled to take place in the next 2 to 6
months and the case manager would wait until the completion of the examination to determine
whether the bank had a problem. The follow-up action on the other two cases was to (1) monitor
the next ORL to see if the institution was flagged again and (2) call the bank in the following
quarter.

According to the DSC Manual of Examination Policies, “the quality of management is probably
the single most important element in the successful operation of a bank.” DSC case managers
were aware that 22 (including the 5 cases flagged as follow-up) of the 27 flagged institutions had


                                                7
management problems based on the previous examination, such as weaknesses in loan
administration policies, asset management, and asset quality. For example, one case manager’s
analysis stated “management efficiency and appropriate directorate oversight was deemed to be
lacking…Credit administration/underwriting was mediocre.” In another instance, the case
manager’s analysis stated “the State authority recently conducted an exam. The exam reflected a
deteriorated financial condition due to extremely weak loan administration.” However, none of
the 22 institutions that had known management problems had a visitation recommended. The
only institution that had a visitation performed as part of the SCOR analysis had no known
problems.

Rather than acting on SCOR flags, case managers used the onsite examination and the
examination cycle almost exclusively as the basis for following up on the institutions’ potential
deterioration. Some case managers we interviewed expressed the following views:

   •   SCOR does not depict an accurate picture for the majority of flagged institutions. The
       case managers generally know the banks' problems before they are flagged by SCOR.
   •   SCOR is useful but has limitations. It is just one source.
   •   The Management component cannot be assessed until the examination occurs.
   •   SCOR did not give an early warning for the bank's deterioration. The case manager was
       aware of the deterioration before SCOR generated a report.

As a result, DSC case managers are generally not using SCOR as an early warning system of
potential deterioration in FDIC-supervised institutions. Instead, the case managers appear to be
relying on the onsite examination to detect deterioration in the safety and soundness of
institutions.

Conclusion

Innovation, deregulation, and advances in technology have contributed to making the banking
business more complex and potentially riskier. The quick demise of several banks in the past
several years underscores the importance of timely data and early intervention when potential
problems are evident. Although SCOR is intended to assist the FDIC in achieving such
intervention, it appears the processing of SCOR information as currently performed is largely
unproductive. This may be due in large part to the time allowed to process and review
information after the Call Report date – up to 4½ months. During this time frame, an
examination often has either been completed or will be started soon which typically results in no
further follow-up by case managers. Also, there appears to be reluctance by case managers to
proactively follow up on the SCOR flag by either communicating with the bank or requesting
that an examiner go onsite to assess any potential problems. This raises questions about the
effectiveness of SCOR as an early warning system as currently implemented.

We believe integrating information associated with bank management from the previous exam
into the SCOR offsite review could enhance the offsite monitoring process. History has shown
that in almost every bank failure, the problems could ultimately be traced back to poor
management. Poor management practices may go undetected, particularly in strong economic


                                                8
times, and it can take a long time before the problems are evident in reported financial
information. In cases where bank examiners have identified management weaknesses and then
the bank is subsequently flagged by SCOR, these cases pose unusual risk, and case managers
should be encouraged to recommend onsite activity or other interaction with the bank before the
next scheduled examination.

Recommendations

We recommend that the Director, DSC:

(1) Assess the usefulness of SCOR as an early warning system as it is currently being
    implemented. Case managers should participate in such an assessment and provide input on
    whether use of the system should continue given the current limitations on its effectiveness.

If DSC determines that SCOR should continue as part of the offsite monitoring program, we
recommend that the Director, DSC:

(2) Revise SCOR procedures to require that the DSC case manager analyses be performed within
    shorter time frames than allowed by the current procedures.

(3) Instruct case managers to more often recommend onsite activity or other interactions with the
    institution as a follow-up action for those institutions flagged by SCOR that also have
    previously-identified management weaknesses.


CORPORATION COMMENTS AND OIG EVALUATION

On September 20, 2002, the DSC Director provided a written response to the draft report. The
response is presented in Appendix II to this report. We also held follow-up discussions with
DSC staff to clarify aspects of the response. DSC concurred with the report’s three
recommendations.

DSC substantially agreed with recommendation 1. While recognizing SCOR's limitations, DSC
has concluded that SCOR along with other offsite models provides the most effective and
efficient method for identifying emerging risk. DSC believes that SCOR is one of the best
offsite models in use by the regulatory community, stating that other federal regulatory agencies
and most state banking authorities also use SCOR. Additionally, case managers and examiners
make use of offsite data, including SCOR, to pinpoint areas of review in the pre-examination
planning process and the risk-focused examination process. DSC stated that it would continue to
evaluate the usefulness of SCOR and other risk monitoring tools. DSC also agreed with the OIG
that case manager participation in assessing the offsite program is necessary and stated that case
managers are involved in various aspects of assessing and improving the FDIC's offsite program,
including SCOR. Also, the Director noted that the regulatory agencies have a process in place
through the Federal Financial Institutions Examination Council (FFIEC) Surveillance Task Force
to discuss each agency’s monitoring methodologies and programs. We consider the Director's


                                                9
comments responsive to our recommendation. This recommendation is resolved, dispositioned,
and closed.

DSC concurred with recommendation 2 and stated that near the end of 2002 it will reduce the
time frames for offsite reviews from 75 days to 45 days after Call Report data is final. In
addition, when the Chairman’s initiative for shortening the time needed to process Call Reports
is instituted, the delay in receiving final Call Report data will be reduced from the current
60 days. This recommendation is resolved but will remain undispositioned and open until we
have determined that agreed-to corrective action has been implemented and is effective.

For recommendation 3, DSC agreed that institutions flagged by SCOR and other offsite
monitoring tools, with previously identified management weaknesses, may pose increased risk.
DSC guidance instructs case managers to analyze, monitor, and report upon significant changes
in risk profiles. In response to this recommendation, DSC stated that future regional office
reviews will include a focus on case manager adherence to established offsite review policy. In
follow-up discussions with DSC staff, they indicated that they would expand their regional office
review program for 2003 to address the concerns noted in the audit report. These actions will
help to ensure that case managers are recommending onsite activity or other interactions with the
institution when warranted. This recommendation is resolved but will remain undispositioned
and open until we have determined that agreed-to corrective action has been implemented and is
effective.

In addition to responding to the three recommendations, the Director had further comments on
certain aspects of the report. Those comments generally reiterated the report’s position that
SCOR is dependent on the accuracy of Call Report data and cannot assess non-financial factors
such as fraud and insider abuse.

Regarding the time lag of up to 4½ months between the Call Report date and subsequent offsite
review, DSC stated that in most cases, case managers start the review process as soon as the
Offsite Review List is available – approximately 60 days (2 months) after the Call Report date.
Since case managers do not document when the review starts but rather when they finish it, we
cannot address that observation. However, in our sample, completed offsite review analyses
averaged over 110 days (3½ months) and in some instances ranged up to 4½ months after the
Call Report date.

Lastly, DSC believes “it is not ‘rare’ that appropriate follow-up actions are taken using all the
analysis tools and information available.” The OIG agrees that deferring to a past, present, or
future examination is oftentimes an acceptable follow-up action. Our concern is that case
managers may be over-relying on that particular action and, as a result, may be missing
opportunities for early intervention.




                                                 10
                                                                                      APPENDIX I

OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to determine the effectiveness of SCOR as an early warning system and
assess actions taken by DSC in response to early warning flags identified by SCOR. To accomplish
our objectives, we reviewed the sections in the DSC Case Managers Procedures Manual related to
the SCOR Offsite Review Program, the SCOR Manual, DSC Manual of Examination Policies, DSC
regional directors memoranda, and DSC quarterly management reports. To understand the
differences in offsite monitoring procedures around the country, we visited the eight regional offices
located in Atlanta, Georgia; Boston, Massachusetts; Chicago, Illinois; Dallas, Texas; Kansas City,
Missouri; Memphis, Tennessee; New York, New York; and San Francisco, California. At the
regional offices, we interviewed a total of 23 DSC case managers and two assistant regional directors
based on institutions selected and availability of personnel. We conducted the interviews to obtain
an understanding of the region’s offsite monitoring program.

We focused on the 204 FDIC-supervised institutions that had a composite rating of “3,” “4,” or “5”
as of October 2000 and that had a rating downgrade from examinations performed between October
1998 and October 2000. We did not include new institutions in our review. SCOR exception reports
are not generated for new institutions because they are already subject to an increased level of
supervision for their first 3 years of operation.

We reviewed all “5” rated institutions and judgmentally sampled “3” and “4” rated institutions. We
judgmentally selected “3” and “4” rated institutions by asset size and composite rating changes, such
as a composite rating change from a “1” to a “3.” In addition, we selected institutions from all FDIC
regions in order to get a nationwide perspective. Table 3 shows the regions and number of FDIC-
supervised institutions reviewed.

Table 3: Number of FDIC-Supervised Institutions Reviewed by OIG
                  Composite      Composite        Composite                  Total
  FDIC Region     “3” Rating     “4” Rating       “5” Rating                 Institutions
  Atlanta          9             3                                           12
  Boston           6                                                          6
  Chicago         10             3                1                          14
  Dallas          10             5                2                          17
  Kansas City      9             4                                           13
  Memphis         10             1                                           11
  New York         8             2                                           10
  San Francisco    8             2                1                          11
  Total           70             20               4                          94

In total, we reviewed 94 FDIC-regulated institutions, or 46 percent of the 204 “3,” “4,” and “5” rated
institutions downgraded between October 1998 and October 2000. At each regional office, we
reviewed the documentation in institution files that supported offsite monitoring between the dates of


                                                 11
the prior examination and the examination that downgraded the institution. Documents reviewed
included SCOR and other offsite analyses, reports of examination, one visitation report, telephone
conversations with bank management, bank reports, ratings change and confidential problem bank
memoranda, and other case manager documents.

We reviewed the prior and downgraded examinations’ composite and component ratings of those
institutions not flagged by SCOR. We selected and analyzed those institutions that were
downgraded two or more composite ratings between exams to determine the underlying deficiencies
and why the SCOR system did not flag the institution. We counted the institutions that SCOR
flagged between the dates of the prior examination and downgrade examination and calculated the
percentage to actual downgrades to determine the number of institutions that the system flagged for
early warning to the DSC case managers.

We reviewed for consistency the action and follow-up codes given by DSC case managers for
institutions flagged by SCOR. We evaluated the timing of the "better" than SCOR and "concern"
action codes as compared to the downgrade of the institution. We also scheduled all action codes
for all ORLs on which the institution was flagged and evaluated the codes given when the DSC case
manager knew about the institution downgrade.

The limited nature of the audit objectives did not require that we (1) test for fraud or illegal acts,
(2) test for compliance with laws and regulations, or (3) determine the reliability of computer-
processed data obtained from the FDIC’s computerized systems. With the exception of the
controls over the SCOR model and the application controls of that system, we performed a
limited review of internal controls over SCOR. We evaluated whether all institutions on the
ORLs had analysis prepared within the designated time frames. We also performed limited
testing of the information extracted from SCOR. We did not find any problems with our limited
testing of SCOR internal controls. Additionally, we reviewed the 2000 Annual Performance
Plan goal for the offsite review program where DSC reported that it met the performance goal of:
“100% of supervisory concerns noted during offsite reviews of insured depository institutions are
resolved without further action or are referred for examination or other supervisory action.” We
conducted the audit in accordance with generally accepted government auditing standards from
January 2001 through July 2002.




                                                 12
                       APPENDIX II

CORPORATION COMMENTS




         13
14
15
16
17
